of /
\ on
}

IN THE SUPREME COURT OF THE UNITED STATES FOR THE STATE OF NEBRASKA
8TH JUDICIAL CIRCUIT

 

STATE OF NEBRASKA, ) CASE NO.
RESPONDENT (S) )
) MOTION FOR THE SETTING OF APPEAL BOND
vs. )
)
ABDUR-RASHID MUHAMMAD, )
PETITIONER. )

COMES NOW, the Petitioner, Abdur-Rashid Muhammad, formally known as
Antonio Rooks~Byrd, Hereby moves this Court while acting pro-se in this matter for a
Motion For The Setting Of Appeal Bond, while the Petitioner's Writ Of Certiorari
is pending with this Court and the Petitioner asserts the following:
1. The Petitioner's Writ Of Certiorari is pending;
2. Under Ne. Rev. Const. Art. I, § 9, the Petitioner is a Bailable person;
3. The Petitioner is showing in his Writ Of Certiorari in this matter, that there is
a substantial claim of law based on the facts surrounding the Writ Of Certiorari, but
also the existence of some circumstance making the Motion For The Setting Of Appeal
Bond exceptional and deserving of special treatment in the interest of justice;
4, The Petitioner has no criminal charges pending, and the charges that was charged to
the Petitioner in this matter are VOID and UNCONSTITUTIONAL;
5. Under U.S.C.A. Const. Amends 5,14 hold that " Modern notions of Due Process and
fundamental fairness demand that citizen should not arbitrarily be denied bail soley
because there is no statue specifically authorizing granting of bail a;
6. The Supreme Court Of The United States For The State Of Nebraska do have Jurisdiction

over this matter and thus has the Authority of granting this Motion For Appeal Bond;
~ -_

7. Everyday of Unconstitutional Incarceration constitutes irreparable harm to the
Petitioner;

8. The Petitioner is not a flight risk at all, and there is no substantial danger

of the Petitioner abscording while free on bond pending appeal;

9. The Petitioner is being illegally incarcerated by the State Of Nebraska and the
Nebraska State Penitentiary by means of a VOID and UNCONSTITUTIONAL Sentence, Judgment,
Conviction and Commitment.

WHEREFORE, the Petitioner prays that this Court grants this Motion and set an Appeal
Bond in this matter.

ABDUR-RASHID MUHAMMAD 73537

P.O. BOX 22500

LINCOLN, NE 68542-2500

x_Abdu--tohs 2 Yu henna x fel DATE: 08 [02 | 20d
able ae eS | hou
NOTARY: sheen My cam Exp. Waren 0,202 x Pe pate: ¥ | 7 | tors)

CERTIFICATE OF SERVICE

I CERTIFY THAT ON_ OG loz Lees » AS PETITIONER, ABDUR-RASHID MUHAMMAD, I PLACED A
COPY OF A MOTION FOR THE SETTING OF APPEAL BOND FOR SAID CASE IN THE MAIL TO SERVE THE

ATTORNEY'S FOR THE RESPONDENT(S) BY WAY OF THE UNITED STATES MAIL DULY ADDRESSED TO:

NEBRASKA ATTORNEY GENERAL 2115 STATE CAPITOL LINCOLN, NE 68509.

ABDUR-RASHID MUHAMMAD 73537

P.O. BOX 22500

LINCOLN, NE 68542-2500
x_ KAdur- Lat RUA MoheramA x VA 7 DATE: 23o? [202
NOTARY: leche moter an x Tow NG. ve DATE: af

 

02e@

 

TOM PFEIFER
shen My Comm. Exp. March 10, 2021
CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS

2413 State Capitol, 2.0. Box 98910
Lincoln, Nebraska 68509-8910

 

(402) 471-3731
FAX (402) 471-3480
August 4, 2020
Abdur-Rashid Muhammad #73537 APPENDIX A

Penitentiary
PO Box 22500
Lincoln, NE 68542-2500

IN CASE OF: A-20-000117, Muhammad v. State of Nebraska

TRIAL COURT/ID: Lancaster County District Court CI19-3861

The following filing: Mot Appellant for Setting of Appeal Bond
Filed on 07/10/20
Filed by appellant Abdur-Rashid Muhammad #73537

Has been reviewed by the court and the following order entered:

Motion of appellant for order setting bond overruled.

Respectfully,

Clerk of the Supreme Court
and Court of Appeals

www. supremecourt.ne.gov
